cell ph. 412.613.2541

Terry Budd, Esq.
Budd Law, PLLC
120 Lyndhurst Circle
Wexford, Pa 15090

terry.budd@buddlawglobal.com

May 21, 2020
By Electronic Filing
The Honorable Scott S. Harris
Clerk of the Court
United States Supreme Court
One First Street, N.E.
Washington, D.C. 20543
Attn: Danny Bickell, Esq.
Re:

Malwarebytes, Inc. v. Enigma Software Group USA, LLC, No. 19-1284

Dear Mr. Harris:
As counsel of record for respondent Enigma Software Group USA, LLC (“Enigma”),
in the above-captioned case, I am writing to request a 45-day extension of time to file a brief
in opposition in this case to and including July 27, 2020. The certiorari petition was filed on
May 11, 2020, and it was docketed on May 13, 2020. Without the requested extension, the
brief in opposition would be due on June 12, 2020.
The requested 45-day extension to file a brief in opposition to the certiorari petition is
necessary in order to allow counsel adequate time to review the petition and prepare a
response given the professional disruptions caused by the COVID-19 pandemic and the
press of other business for which undersigned counsel has primary responsibility. Counsel
also has received notice from an amicus of its intention to file a brief in support of
petitioner, and requests the additional time to review and respond to the arguments made
in that brief. Counsel represents that Petitioner’s counsel has been contacted and consents
to this request.

Hon. Scott S. Harris
May 21, 2020
Page 2

Thank you for your assistance. If you have any questions, please call me at
(412) 613-2541.
Sincerely,
/s/ Terry Budd
Terry Budd
Counsel of Record for Respondent
Enigma Software Group USA, LLC

cc:

Counsel of Record for Petitioner
(Neal Kumar Katyal – neal.katyal@hoganlovells.com,
Tyler Griffin Newby – tnewby@fenwick.com)

